U.S. Department of Agriculture
 Office of Inspector General
      Southwest Region
         Audit Report



  FOOD AND NUTRITION SERVICE
     FOOD STAMP PROGRAM
 ELECTRONIC BENEFIT TRANSFER
     SYSTEM DEVELOPMENT
      STATE OF ARKANSAS




              Report No.
              27099-11-Te
              September 2002
                UNITED STATES DEPARTMENT OF AGRICULTURE
                              OFFICE OF INSPECTOR GENERAL
                                        Southwest Region
                                  101 South Main, Suite 324
                                    Temple, Texas 76501


DATE:        September 24, 2002

REPLY TO
ATTN OF:     27099-11-Te

SUBJECT:     Arkansas EBT System Development

TO:          Jerome A. Lindsay
             Regional Administrator
             Food and Nutrition Service
             1100 Commerce Street, Room 5-A-6
             Dallas, TX

ATTN:        Albert McIlwain
             Acting Regional Director
             Food Stamp Program


This report presents the results of our audit of Food and Nutrition Service’s (FNS)
Arkansas EBT System. The FNS response to the draft report, dated July 10, 2002, is
included in exhibit B, with excerpts and the Office of Inspector General’s position
incorporated into the relevant sections of the report.

We agree with your management decision on all recommendations. Please note that
Departmental Regulation 1720-1 requires final actions to be taken within 1 year of the
management decisions. Correspondence concerning final actions should be addressed
to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff
during the audit.



/s/ B. R. Engelke
for
ROBERT E. GRAY
Regional Inspector General
   for Audit
                     EXECUTIVE SUMMARY
                         FOOD AND NUTRITION SERVICE
                           FOOD STAMP PROGRAM
                        ELECTRONIC BENEFIT TRANSFER
                            SYSTEM DEVELOPMENT
                             STATE OF ARKANSAS

                            REPORT NO. 27099-11-Te


                                      The Electronic Benefits Transfer (EBT) system
       RESULTS IN BRIEF               represents a more effective method for
                                      delivery of Food Stamp Program (FSP)
                                      benefits to recipients than the food stamp
           coupons. We reviewed the Arkansas EBT system as part of our ongoing
           effort to monitor the establishment of EBT systems nationwide. The
           overall objectives were to assess established controls over the
           EBT system and determine whether the controls were functioning as
           designed.

           Overall, the Arkansas Department of Human Services (ADHS) generally
           had sufficient controls and procedures to ensure that FSP benefits were
           issued in a timely manner, recipients were trained in the use of   EBT
           cards, EBT transactions were processed on time, and retailers received
           their payments. Although the audit did not identify any fraudulent
           transactions, we found that ADHS needs to improve its controls in the
           following areas:

                    •    Oversight of EBT system activity needs to be improved.
                         ADHS had no policies and procedures for routine oversight
                         of EBT system activity, including reviewing management
                         reports. Instead of monitoring the EBT system, ADHS relied
                         on complaints from county offices to indicate problems.
                         Without adequate oversight the potential for fraudulent
                         EBT activity to go undetected increases.

                    •    ADHS did not reconcile its EBT system daily. ADHS cited a
                         staff shortage in the accounting department as the reason
                         why the EBT system was not reconciled daily and why
                         procedures       were    not     current.    Conducting daily
                         reconciliation reduces the risk that fraudulent activities will go
                         undetected.

USDA/OIG-A/27099-11-Te                                                              Page i
                                SEPTEMBER 2002
                     •   EBT system access controls need to be improved.
                         ADHS did not maintain adequate documentation for user
                         authorizations, remove terminated employees’ access in a
                         timely manner, assign appropriate access levels to users,
                         and review continued need for EBT system access. This
                         occurred because ADHS had not established a formalized
                         policy or written procedures to protect the EBT system from
                         unauthorized access. As a result, there was a greater risk
                         that unauthorized individuals could access the EBT system.

                     •   Expunged-benefits reporting needs to be improved.
                         ADHS did not label expunged benefits properly on its
                         FNS-46, Issuance Reconciliation Report, which is submitted
                         to the Food and Nutrition Service (FNS) each quarter. This
                         occurred because ADHS employees did not have a clear
                         understanding of the expungement process. As a result,
                         FNS-46 reports did not clearly identify the amount expunged.

                                        We recommend that FNS instruct ADHS to
    KEY RECOMMENDATIONS                 implement control procedures to require that:
                                        (1) adequate policies are implemented for
                                        routine oversight of the EBT system,
           (2) appropriate reconciliations are completed in a timely manner,
           (3) reconciliation procedures and FNS-46 report procedures are current,
           (4) EBT system access policy is formalized, (5) adequate documentation
           is maintained on requests and approvals for access to the EBT system,
           and (6) EBT system access reports are reviewed frequently for continued
           need to access the system. We also recommended that FNS conduct a
           follow-up review of ADHS to ensure that system access controls are in
           place and functioning. Further, we recommended ADHS personnel be
           trained on the proper reporting of expungements and that expungements
           be labeled correctly on the FNS-46 reports.

                                     FNS provided a written response to the
      AGENCY RESPONSE                draft report (see exhibit B) concurring
                                      with all recommendations.         Additionally,
                                     FNS’ response contained general comments
         concerning findings nos. 1 and 4. FNS believes the report should indicate
         that no fraud was found as a result of finding no. 1, and that finding
         no. 4 should more clearly indicate that the expungements issue was a
         labeling problem, not an issue reflecting the accuracy or inaccuracy of the
         data.


USDA/OIG-A/27099-11-Te                                                        Page ii
                               SEPTEMBER 2002
                                        We also agree with the management decision
          OIG POSITION                  by FNS for all the recommendations. We
                                        agree with FNS’ general comments regarding
                                        finding nos. 1 and 4. Therefore, we edited the
      report to clarify intended meaning. The documentation needed for final action
      is described in the “OIG Position” section for each recommendation.




USDA/OIG-A/27099-11-Te                                                        Page iii
                               SEPTEMBER 2002
                                     TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................................i
   RESULTS IN BRIEF....................................................................................................i
   KEY RECOMMENDATIONS ......................................................................................ii
   AGENCY RESPONSE ...............................................................................................ii
   OIG POSITION..........................................................................................................iii
TABLE OF CONTENTS................................................................................................iv
INTRODUCTION............................................................................................................1
   BACKGROUND .........................................................................................................1
   OBJECTIVE ...............................................................................................................2
   SCOPE .......................................................................................................................2
   METHODOLOGY .......................................................................................................3
FINDINGS AND RECOMMENDATIONS .......................................................................4
   CHAPTER 1 ...............................................................................................................4
   ADHS NEEDS TO IMPROVE CERTAIN CONTROLS OVER THE EBT SYSTEM....4
   FINDING NO. 1 –........................................................................................................4
   RECOMMENDATION NO. 1 ......................................................................................5
   FINDING NO. 2 –........................................................................................................6
   RECOMMENDATION NO. 2 ......................................................................................6
   RECOMMENDATION NO. 3 ......................................................................................7
   FINDING NO. 3 –........................................................................................................7
   RECOMMENDATION NO. 4 ......................................................................................8
   RECOMMENDATION NO. 5 ......................................................................................9
   RECOMMENDATION NO. 6 ......................................................................................9
   RECOMMENDATION NO. 7 ....................................................................................10
   FINDING NO. 4 –......................................................................................................10
   RECOMMENDATION NO. 8 ....................................................................................11
   RECOMMENDATION NO. 9 ....................................................................................11
   EXHIBIT A – SITES VISITED...................................................................................12

USDA/OIG-A/27099-11-Te                                                                                                 Page iv
                                                  SEPTEMBER 2002
   EXHIBIT B – FNS’ RESPONSE TO THE DRAFT REPORT ....................................13
ABBREVIATIONS........................................................................................................16




USDA/OIG-A/27099-11-Te                                                                                        Page v
                                              SEPTEMBER 2002
                          INTRODUCTION

                                    The United States Department of Agriculture’s
         BACKGROUND                 FNS   administers the FSP through a joint
                                    Federal-State partnership.      The Federal
                                    Government pays the full cost of recipient
           benefits and shares the cost to administer the FSP with the States.
           Congress funds the FSP through the direct appropriation of funds.
           Through this joint Federal-State partnership, FNS is pursuing
           EBT implementation by each State for the FSP nationwide.

           The FSP assists low-income households by increasing their ability to
           purchase food. Once a month, each participating household receives a
           benefit allotment determined by the number of individuals in the family,
           household income, and other related factors. The FSP recipients use the
           benefits to pay for food items at approved participating food retailers.

           Before EBT, the basic method of FSP benefit delivery was the food stamp
           coupon.     EBT was developed to replace paper coupons with a
           computerized version of the food benefit delivery process. Using plastic
           cards, much like debit cards, along with a personal identification number
           (PIN), recipients gain access to their benefits through point-of-sale (POS)
           terminals located at approved food retailers. The retailers are reimbursed
           for food purchased by the FSP.

           In fiscal year (FY) 2000, FSP benefits were approximately $15 billion and
           increased to approximately $15.5 billion for FY 2001. FSP benefits issued
           through EBT totaled approximately $11 billion in FY 2000 and are
           expected to increase annually.

           The Food Stamp Act of 1977, Public Law 88-525, authorized FNS to
           experiment with alternative methods for the delivery of FSP benefits using
           electronic data processing and computer technology.            With this
           authorization, FNS allowed State agencies to begin issuing FSP benefits
           using an EBT system. The Personal Responsibility and Work Opportunity
           Reconciliation Act of 1996, Public Law 104-193, requires all States to
           implement EBT systems before October 1, 2002.

           On May 1, 1996, the State of Arkansas contracted with Citibank to
           establish an online EBT system in which the benefit authorizations are
           maintained in a central computer, and recipient benefits are processed
           through POS terminals located at authorized retailers. The online system
           uses plastic benefit cards that are distributed to FSP households. The

USDA/OIG-A/27099-11-Te                                                        Page 1
                               SEPTEMBER 2002
           cards have a magnetic strip containing basic identifying information for the
           recipient to make food purchases. At the retailer, FSP recipients present
           their card and enter a unique PIN into the POS terminal.                The
           POS terminal communicates with a central database that verifies the
           amount of benefits available, authorizes the transaction, and debits the
           household account for the amount of the purchase. The EBT system also
           calculates each retailer’s cumulative daily FSP sales and authorizes
           payment by electronic funds transfer.

           ADHS administers the EBT system for the State of Arkansas and
           administers the contract with Citibank to operate the EBT system.
           Citibank subcontracted the central computer processing to
           e-Funds Corporation (processor).         The contract was effective
           May 1, 1996, and the current contract expires on June 30, 2003.

           The FNS National Office is responsible for establishing overall program
           regulations, EBT policy, approval of State EBT systems, and coordinating
           with Federal, State, commercial, and private interest groups. A National
           office FSP account executive is assigned to work with each State.
           FNS’ policy allows States the flexibility to establish controls that meet the
           needs of the State; however, the State remains financially liable to the
           Federal Government for actions of its EBT processor.                FNS has
           established approval rules for the delivery of FSP benefits using
           EBT systems in Title 7, Code of Federal Regulation (CFR) section
           274.12 and for approving automated data processing systems in
           Title 7, CFR section 277.18. FNS Regional Offices (FNSRO) serve as
           liaisons between the States and the FNS National Office.

                                       The objectives of this audit were to provide an
          OBJECTIVE                    evaluation of the adequacy of established
                                       controls and an assessment on whether
                                       controls functioned as designed.

                                     As of June 2002, 45 States, the District of
            SCOPE                    Columbia, and Puerto Rico used EBT systems
                                     to deliver FSP benefits. Forty-one of these
                                     systems have been implemented Statewide.
           Arkansas was judgmentally selected for review as a result of our efforts to
           continue monitoring EBT systems that have been implemented Statewide.
           Arkansas delivered approximately $206 million in FSP benefits for
           FY 2000. Our fieldwork was performed during the period March through
           October 2001 and included coverage for FY 2001.




USDA/OIG-A/27099-11-Te                                                          Page 2
                                SEPTEMBER 2002
           Audit coverage included the FNSRO in Dallas, Texas; ADHS’ EBT
           operations in Little Rock, Arkansas; and subcontractor Lockheed Martin,
           Inc., in Atlanta, Georgia.     The Atlanta Lockheed Martin facility is
           responsible for returned EBT benefit cards. For FY 2001, we reviewed
           controls and procedures established by FNS, ADHS, Citibank, and
           appropriate subcontractors including drawdown and settlement,
           authorization and logon access to the EBT system, reconciliation,
           conversion of EBT benefits to food stamp coupons, routine oversight,
           expungement reporting, and recoupment of benefits.

           The audit was conducted in accordance with Government Auditing
           Standards issued by the Comptroller General of the United States.
           Accordingly, the audit included such tests of program and accounting
           records as considered necessary to meet the audit objectives.

                                      To accomplish the audit objectives, we relied
        METHODOLOGY                   on documentary, analytical, and testimonial
                                      evidence.      We compared the State's
                                      EBT operation with requirements of the Food
           Stamp Act of 1977, as amended, and Title 7, CFR sections 271 through
           277, revised January 1, 2001. We interviewed FNSRO and ADHS officials
           and reviewed program policies and procedures. We assessed key control
           areas including the FNSRO’s and ADHS’ utilization of EBT management
           reports and examined the physical security of returned EBT cards.




USDA/OIG-A/27099-11-Te                                                      Page 3
                              SEPTEMBER 2002
                     FINDINGS AND RECOMMENDATIONS


                               ADHS NEEDS TO IMPROVE CERTAIN CONTROLS
CHAPTER 1
                               OVER THE EBT SYSTEM


                     Overall, ADHS generally had sufficient controls to provide reasonable
                     assurance that FSP benefits were available to program participants,
                     benefit redemptions were settled in a timely manner (including the
                     contractor's drawdowns of Federal funds), and participants were trained
                     regarding the use of EBT cards. However, we found that ADHS controls
                     over routine oversight, reconciliation, EBT system access, and
                     expungement reporting needed improvement.

                                         ADHS’ oversight over EBT system activity
         FINDING NO. 1 –                 needs to be improved, including the review of
                                         management reports. This occurred because
      OVERSIGHT OF ADHS’ EBT             ADHS did not have policies requiring routine
    SYSTEM NEEDS IMPROVEMENT             oversight of the EBT system.            Instead
                                         ADHS relied on complaints from county offices
                                         to indicate problems. As a result, the potential
            that fraudulent FSP activity might go undetected was increased.

                     FNS program regulations require the EBT processor to provide
                     management reports to enable State agencies to monitor the
                     EBT system.1 However, ADHS did not utilize management reports that
                     were available for monitoring EBT system activity. ADHS had specified 19
                     management reports as tools for monitoring the EBT system.
                     ADHS personnel stated that these reports were usually reviewed only
                     when the county office had reported a problem.

                     At the time of this audit, the management reports that ADHS was not
                     reviewing included coupon conversions and manual transactions reports
                     to monitor EBT system activity. The coupon conversions report lists the
                     clients who requested to have their EBT benefits converted to coupons.
                     EBT benefits can be converted to coupons when a client is leaving the
                     EBT program area and needs access to their benefits. However,
                     ADHS policy prohibits conversion of EBT benefits to coupons when clients
                     do not provide proper relocation information. ADHS converted $9,659 of

1
    Title 7, CFR 274.12(j), Reconciliation and Management Reporting, dated January 2000.


USDA/OIG-A/27099-11-Te                                                                     Page 4
                                                   SEPTEMBER 2002
           EBT benefits to coupons in March 2001. Monitoring conversion of
           EBT benefits is necessary in the prevention and detection of fraudulent
           food stamp activity. Consequently, the lack of monitoring increased the
           risk that fraudulent activity within the food stamp program would go
           undetected.

           In addition, ADHS did not review management reports for manual
           transactions (manual card entry and manual voucher activity). The
           manual card entry report and manual voucher tracking report lists
           EBT cards that were not swiped (the card number was manually entered)
           and provides statistical information for manual vouchers, respectively.
           Manual vouchers are used when the EBT system is not available and by
           retailers that do not have POS terminals such as vegetable markets and
           meal delivery services. Manual transactions are a vulnerable area. For
           example, manual vouchers do not require the use of a PIN and may result
           in unauthorized use of benefits. Review and follow-up on unusual activity
           noted in management reports would increase the chance of detecting
           fraudulent activity.

           Although ADHS did not routinely review all management reports that were
           available for monitoring EBT system activity, some management reports
           were reviewed. For example, the aged benefits report that is used to
           determine if benefits are available for restoration was reviewed; however,
           the report which shows additional benefits posted to EBT accounts from
           which aged benefits are removed was not.

           Although the audit did not identify any fraudulent transactions, we believe
           that ADHS’ EBT system activity should be monitored on a routine basis. A
           written procedure manual that describes the oversight to be performed by
           ADHS staff, such as the review and follow-up on unusual activity noted in
           management reports, would increase the chance of detecting fraudulent
           FSP activity within the EBT system.

                                       Direct ADHS to establish internal controls that
    RECOMMENDATION NO. 1               require routine oversight of EBT system
                                       activities.  The controls should include
                                       requirements   for    periodic    review     of
           management reports.

           FNS Response

           FNS concurs with this recommendation and plans to issue a letter
           directing the State to implement the recommendation by
           September 20, 2002. FNS noted that OIG did not find evidence of fraud
           within the Arkansas EBT system.



USDA/OIG-A/27099-11-Te                                                        Page 5
                               SEPTEMBER 2002
                     OIG Position

                     We agree with the management decision and edited the finding to clarify
                     that no fraudulent transactions were found. For final action, provide
                     OCFO documentation indicating ADHS has established and implemented
                     internal controls that require routine oversight of EBT system activities.

                                           ADHS did not perform daily reconciliation of
                                           the EBT system. ADHS also has outdated
          FINDING NO. 2 –                  reconciliation procedures that do not reflect
                                           the actual reconciliation procedures. This
      DAILY RECONCILIATION NOT
                                           occurred because there was a staff shortage
             PERFORMED
                                           in ADHS’ accounting section. Consequently,
                                           there was an increased risk that fraudulent
              activities would not be detected in a timely manner.

                     FNS program regulations2 state that the following reconciliations shall be
                     conducted on a daily basis: (1) reconciliation of individual household
                     account balances against account activities, (2) reconciliation of individual
                     retailer food stamp transactions per POS terminal and in total to deposits,
                     and (3) reconciliation of total funds entering into, exiting from, and
                     remaining in the system. Current procedures need to be maintained to
                     ensure reconciliations are performed as mandated in FNS regulations.

                     ADHS personnel stated that daily reconciliations, outlined above, were not
                     always performed. The personnel try to have reconciliations up to date by
                     the 15th and the end of each month. During an interview, ADHS staff
                     stated that reconciliations were delayed because there was a staffing
                     shortage in the accounting department; however, they have authority to fill
                     the vacant position. We also noted that the daily reconciliation procedures
                     as well as procedures for completing Form FNS-46, Issuance
                     Reconciliation Report, were outdated. For example, the procedure
                     contained a listing of reports to be used during the reconciliation that was
                     no longer accurate.        After our onsite fieldwork at ADHS offices,
                     FNS conducted a review that also noted reconciliation procedures were
                     outdated.


                                                             Direct ADHS to complete the appropriate
         RECOMMENDATION NO. 2                                reconciliations in compliance with Federal
                                                             regulations.



2
    Title 7, CFR 274.12(j), Reconciliation and Management Reporting, dated January 2000.


USDA/OIG-A/27099-11-Te                                                                          Page 6
                                                   SEPTEMBER 2002
                    FNS Response

                    FNS concurs with this recommendation and plans to issue a letter to the
                    State by September 20, 2002, directing that recommendation be
                    implemented.

                    OIG Position

                    We agree with the management decision. For final action, provide
                    OCFO documentation indicating ADHS is completing the appropriate
                    reconciliations in compliance with Federal regulations.


                                                               Direct ADHS to establish controls to ensure
         RECOMMENDATION NO. 3                                  that reconciliation procedures and FNS-46
                                                               procedures are current.

                    FNS Response

                    FNS concurs with this recommendation and plans to issue a letter to the
                    State by September 20, 2002, directing the implementation of the
                    recommendation.

                    OIG Position

                    We concur with the management decision. For final action, provide
                    OCFO documentation indicating ADHS has established and implemented
                    controls ensuring reconciliation procedures and FNS-46 procedures are
                    current.

                                                               ADHS      did   not     maintain    adequate
                                                               documentation for user authorizations, remove
               FINDING NO. 3 –                                 terminated employees’ access in a timely
                                                               manner, assign appropriate access levels to
    CONTROLS OVER EBT SYSTEM
                                                               users, and review continued need for EBT
      ACCESS NOT ADEQUATE
                                                               system access.      The condition occurred
                                                               because ADHS had not formalized its policy
                     with written procedures.                   As a result, unauthorized individuals could
                     access the EBT system.

                     FNS program regulations require the State to have system security
                     procedures, including passwords or identity codes.3



3
    Title 7, CFR 274.12 (h) (3), System Security, dated January 2000.


USDA/OIG-A/27099-11-Te                                                                               Page 7
                                                    SEPTEMBER 2002
           There were 1,329 user identifications (ID) with access to the EBT system
           as of May 2001. We identified eight of these users that had inappropriate
           profiles. The profiles granted to these users gave them authority to issue
           EBT cards and authorize benefits. An Arkansas State Legislative audit of
           ADHS in June 2000 found that ADHS had inappropriate profiles.
           ADHS stated that some of the inappropriate profiles had been eliminated
           prior to our fieldwork. ADHS also stated that the inappropriate profiles that
           we noted have been changed to ensure that no user can issue EBT cards
           and authorize benefits.

           In addition to the 8 users that were granted inappropriate profiles, there
           were 60 ADHS employees, within the FSP operational area, that
           terminated their employment in the 12 months prior to May 2001. We
           reviewed 8 of 60 and identified 5 employees that still had active user ID’s.
           We also identified that four of these five employees had terminated
           employment more than 90 days prior to May 2001. A system user cannot
           access the system if 90 days have passed with no access. A user can
           access the system any time within the 90-day window unless the
           user ID has been deleted. ADHS stated that the user ID’s of the five
           terminated had not been deleted because the EBT unit had not received a
           request to delete the users.

           ADHS does not have controls to ensure that adequate documentation is
           maintained for users who are authorized to access the EBT system. The
           process for approving and deleting users’ access to the EBT system was
           conducted by telephone and e-mail. ADHS did not maintain any access
           authorization documentation for users who were granted access to the
           EBT system nor did ADHS conduct reviews to determine if users
           continued to have a need for EBT system access.

           FNS needs to ensure that ADHS reviews user access reports and corrects
           any exceptions, such as terminated employees with active user ID’s, and
           the continued need for system access. FNS also needs to ensure that
           ADHS maintains adequate documentation of requests and approvals for
           user access to the EBT system.


                                       Direct ADHS to formalize and document its
    RECOMMENDATION NO. 4               policy for review of EBT system access to
                                       minimize the possibility of unauthorized
                                       access.
          FNS Response

          FNS concurs with this recommendation and plans to issue a letter to the
          State by September 20, 2002, directing the implementation of the
          recommendation.

USDA/OIG-A/27099-11-Te                                                          Page 8
                                SEPTEMBER 2002
          OIG Position

          We concur with the management decision. For final action, provide
          OCFO documentation indicating ADHS has formalized and documented its
          policy for review of EBT system access.


                                     Direct   ADHS      to   maintain adequate
    RECOMMENDATION NO. 5             documentation of requests and approvals for
                                     user access to the EBT system.


          FNS Response

          FNS concurs with this recommendation and plans to issue a letter to the
          State by September 20, 2002, directing the implementation of the
          recommendation.

          OIG Position

          We concur with the management decision. For final action, provide
          OCFO documentation indicating ADHS is maintaining adequate
          documentation of requests and approvals for user access to the
          EBT system.


                                     Direct ADHS to perform frequent reviews of
    RECOMMENDATION NO. 6             user access reports for continued need for
                                     system access and correct any exceptions
                                     (such as terminated employees with active
           user ID’s).

          FNS Response

          FNS concurs with this recommendation and plans to issue a letter to the
          State by September 20, 2002, directing the implementation of the
          recommendation.

          OIG Position

          We concur with the management decision. For final action, provide
          OCFO documentation indicating ADHS is performing frequent reviews of
          user access reports for continued need for system access and correcting
          any exceptions.



USDA/OIG-A/27099-11-Te                                                    Page 9
                              SEPTEMBER 2002
                                       Conduct a follow-up review of ADHS to ensure
    RECOMMENDATION NO. 7               all access controls for the EBT system are in
                                       place and functioning.

          FNS Response

          FNS concurs with this recommendation and plans to perform the follow-up
          review as a part of FNSRO’s FY 2003 Work Plan.

          OIG Position

          We concur with the management decision. For final action, provide
          OCFO documentation indicating a follow-up review has been performed
          and access controls for the EBT system are in place and functioning.
          Provide this documentation prior to September 30, 2003.

                                       ADHS did not properly label expungements on
                                       its FNS-46 reports. This occurred because
       FINDING NO. 4 –                 ADHS employees preparing the FNS-46 report
                                       did not have a clear understanding of the
   EXPUNGED BENEFITS NOT
                                       expungement process. Therefore, the FNS-
     LABELED PROPERLY
                                       46 reports submitted by ADHS did not clearly
                                       identify    the    amount      of   monthly
           FSP expungements.

           Form FNS-46, Issuance Reconciliation Report, shows the total food stamp
           benefit returns for the current month, including expungements, on line 7 of
           the report. Although total returns reported on line 7 of the FNS-46 reports
           were accurate for the reports we reviewed, the “Remarks” section of the
           reports that explained the content of line 7 erroneously listed
           expungements as “aged cancellations” and showed “zero balance”
           expungements.

           Benefits not accessed within 3 months are removed from the processor’s
           computer system and expunged from available food stamp funding.
           However, expunged benefits are available for restoration to the recipient’s
           accounts for an additional 9 months. ADHS was reporting expungements
           in a category labeled “aged cancellations” because that is how the
           category was labeled on the processor’s report. During an interview,
           ADHS staff stated that they did not have a clear understanding of the
           expungement process.          The expungements continued to be
           miscategorized because FNS had not questioned ADHS’ FNS-46 reports.
           The expungement category has reflected a zero balance since
           ADHS began listing the category in July 1998. The aged cancellation
           category was added to the report in August 1999 and used to report

USDA/OIG-A/27099-11-Te                                                       Page 10
                               SEPTEMBER 2002
           expungements. As a result, expunged benefits are not clearly identified
           on the FNS-46 reports submitted by ADHS.


                                      Direct ADHS to provide training to employees
    RECOMMENDATION NO. 8              regarding    the     proper      labeling of
                                      expungements.

           FNS Response

           FNS concurs with this recommendation and plans to issue a letter to the
           State by September 20, 2002, directing the implementation of the
           recommendation.

           OIG Position

           We concur with the management decision. For final action, provide OCFO
           documentation indicating ADHS has provided training to employees
           regarding the proper labeling of expungements.

                                      Direct ADHS to label expungements correctly
    RECOMMENDATION NO. 9              on the FNS-46 report.


           FNS Response

           FNS concurs with this recommendation and has discussed the issue with
           State agency officials. Beginning with the July FNS-46 report, which is
           due in November 2002, expungements will be correctly labeled. Also,
           FNS indicated it viewed the issue as a labeling or terminology issue, not
           an issue reflecting the accuracy or inaccuracy of the data.

           OIG Position

           We concur with the management decision and edited the finding to clarify
           our intended meaning. For final action, provide OCFO documentation
           indicating expungements are properly labeled on FNS-46 reports.




USDA/OIG-A/27099-11-Te                                                     Page 11
                               SEPTEMBER 2002
EXHIBIT A – SITES VISITED




           TYPE                       ENTITY         LOCATION
Federal                  FNS Regional Office     Dallas, TX
State                    ADHS                    Little Rock, AR
Citibank Subcontractor   Lockheed Martin, Inc.   Atlanta, GA




USDA/OIG-A/27099-11-Te                                         Page 12
                           SEPTEMBER 2002
EXHIBIT B – FNS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/27099-11-Te                          Page 13
                         SEPTEMBER 2002
USDA/OIG-A/27099-11-Te                    Page 14
                         SEPTEMBER 2002
USDA/OIG-A/27099-11-Te                    Page 15
                         SEPTEMBER 2002
                         ABBREVIATIONS


     ADHS       Arkansas Department of Human Services
     CFR        Code of Federal Regulations
     EBT        Electronic Benefits Transfer
     FNS        Food and Nutrition Service
     FNSRO      Food and Nutrition Service Regional Office
     FSP        Food Stamp Program
     FY         Fiscal Year
     ID         Identification
     PIN        Personal Identification Number
     POS        Point of Sale




USDA/OIG-A/27099-11-Te                                       Page 16
                             SEPTEMBER 2002
